Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1998




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-04-99-00330
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       Graham Rawsthorn, Team Leader                Greg Jones, Program Analyst
       Kristy Buchanan, Intern                      Linda Moscoe, Program Analyst
       Tricia Davis, Program Specialist             Seth Rosenblatt, Program Analyst
       Allison Grablowsky, Program Analyst          Glen Thomas, Program Analyst
       Scott Horning, Program Analyst




To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                                     TABLE OF CONTENTS

                                                                                                                            PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS


         Extent and Characteristics of Closed Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                   How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                   The Effect on Bed Supply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                   Where They Were . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                   What They Were Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Reasons for Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Impact of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


                   How Many Patients Were Affected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


                   What Inpatient Care and Emergency Services Are Available . . . . . . . . . . . . . . . 11


                   What the Building Is Used for Now . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES

         A. Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         B. Number of Hospital Closures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         C. Hospital Closures by Hospital Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . 15

                                 EXECUTIVE SUMMARY

PURPOSE

          To describe the extent, characteristics, reasons for, and impact of hospital closure in 1998.

BACKGROUND

          The closure of hospitals in past years has generated public and congressional concern. We
          released a report in May 1989 describing the nationwide phenomenon of hospital closure
          in 1987. Subsequently, we issued annual reports for hospital closures from 1988 through
          1997.

          The findings from all the OIG studies of hospital closures are similar. The hospitals that
          closed were small and had low occupancy rates. When the hospitals closed, few patients
          were affected. Most patients could get medical care nearby.

FINDINGS

          Our inspection of hospital closures in 1998 produced findings similar to those previously
          reported for 1987-1997.

          !	        Forty-three general, short-term, acute care hospitals closed in 1998 -- 0.9 percent
                    of all hospitals.

          !	        Five more hospitals closed in 1998 than closed in 1997, however, the additional
                    closings were offset by the fourteen hospitals that opened or reopened in 1998,
                    eleven more than in 1997.

          !	        Fifteen of the closed hospitals were rural and 28 were urban. A higher percentage
                    of urban hospitals (1.1%) closed in 1998 than did rural hospitals (0.7%).

          !	        Closed hospitals in both rural and urban areas were smaller on average than the
                    national averages.

                           Rural hospitals that closed had an average of 48 beds as compared to an
                           average of 73 beds for all rural hospitals nationally.

                           Urban hospitals that closed had an average of 125 beds as compared to an
                           average of 223 beds for all urban hospitals nationally.

          !	        Occupancy rates for closed rural and urban hospitals were lower on average than
                    the national averages.

Hospital Closure: 1998                                1                                     OEI-04-99-00330
                           Rural hospitals that closed had an average occupancy rate of 28 percent as
                           compared to an average of 33 percent for all rural hospitals nationally. The
                           average daily census in the year prior to closure was about 14 patients.

                           Urban hospitals that closed had an average occupancy rate of 34 percent as
                           compared to an average of 49 percent for all urban hospitals nationally.
                           The average daily census in the year prior to closure was about 42 patients.

          !	        Medicare utilization in closed hospitals was lower than the national average for
                    rural and urban hospitals.

                           In rural areas, the average Medicare utilization among hospitals that closed
                           was 55 percent compared to an average of 59 percent for all rural hospitals
                           nationally. About eight Medicare patients were in the hospital on an
                           average day in the year prior to closure.

                           In urban areas, the average Medicare utilization among hospitals that
                           closed was 39 percent compared to an average of 46 percent for all urban
                           hospitals nationally. About 16 Medicare patients were in the hospital on an
                           average day in the year prior to closure.

          !	        Medicaid utilization in closed hospitals was higher than the national average for
                    rural and urban hospitals.

                           In rural areas, the average Medicaid utilization among hospitals that closed
                           was 12 percent as compared to an average of 11 percent for all hospitals
                           nationally. About two Medicaid patients were in the hospital on an average
                           day in the year prior to closure.

                           In urban areas, the average Medicaid utilization among hospitals that
                           closed was 22 percent as compared to an average of 14 percent for all
                           urban hospitals nationally. About nine Medicaid patients were in the
                           hospital on an average day in the year prior to closure.

          !	        Many factors and events caused hospitals to close. The most often reported
                    reasons for closures, in order, were low census, financial problems, outdated
                    facilities, Medicare and Medicaid reimbursement reductions, and increased
                    competition. Many of these reasons for closure were interrelated.

          !	        Although residents in a few communities had to travel greater distances for
                    hospital care, most had emergency and inpatient medical care available within 10
                    miles of a closed hospital.

          !	        At the time of our inspection, 20 of the 43 closed hospital facilities (47 percent)
                    were being used for health-related services. Also, plans were being made to use 6
                    of the remaining 23 closed hospitals for health-related services.

Hospital Closure: 1998                                2                                     OEI-04-99-00330
                                     INTRODUCTION

PURPOSE

          To describe the extent, characteristics, reasons for, and impact of hospital closure in 1998.

BACKGROUND

          In the late 1980s, closure of general, acute care hospitals generated public and
          congressional concern. Numerous questions were raised about the impact of hospital
          closure in the United States, as well as implications for public policy. A number of studies
          predicted that more hospitals would close in coming years.

          In response to these concerns, the Office of Inspector General released a report in May
          1989 describing the phenomenon of hospital closure during 1987 in the United States. We
          found that the hospitals that closed were small and their closing did not severely affect
          access to care. Many users of our 1987 hospital closure study encouraged us to continue
          year-by-year analyses of the phenomenon to detect differences in the rate of hospital
          closure, and in the characteristics and circumstances of hospitals that close.

          Similar inspections on hospital closures in 1988 through 1994 showed a downward trend
          in the number of closures. Hospital closures in 1995, 1996, and 1997 more than doubled
          those of 1994, but were still less than in any other year since we began this series of
          reports.




Hospital Closure: 1998                              3                                     OEI-04-99-00330
          The findings from the 1987 through 1997 inspections were similar. The hospitals that
          closed were small and had low occupancy rates. When the hospitals closed, few patients
          were affected. Most could get medical care nearby.


METHODOLOGY

          We examined hospitals that closed in calendar year 1998. For purposes of this study, we
          use the following definitions.

                    Hospital: A facility that provides general, short-term, acute medical and surgical
                    inpatient care.

                    Closed Hospital: A facility that stopped providing general, short-term, acute
                    inpatient care in 1998. If a hospital merged with or was sold to another hospital
                    but the physical plant continued to provide inpatient acute care, it was not
                    considered a closure. If a hospital both closed and reopened in 1998 in the same
                    physical plant, it was not considered a closure.

          To determine the extent, reasons for, and impact of hospital closures, we obtained
          information from State licensing and certification agencies, State health planning agencies,
          State hospital associations, Health Care Financing Administration (HCFA) data bases,
          officials associated with closed and nearby hospitals, and local public officials.

          We obtained information on the characteristics of all hospitals, including those that closed
          in 1998 from the Hospital Cost Report Information System (HCRIS) maintained by
          HCFA.

          Appendix A describes our methodology in further detail.
                                 ____    ____      ____     ____

          We conducted our inspection between August 1999 and May 2000. We conducted this
          inspection in accordance with the Quality Standards for Inspections issued by the
          President’s Council on Integrity and Efficiency.




Hospital Closure: 1998                               4                                     OEI-04-99-00330
                                             FINDINGS

          Our analysis shows that:

          !	        Forty-three general, short-term, acute care hospitals closed in 1998 -- 0.9 percent
                    of all hospitals.

          !	        Five more hospitals closed in 1998 than closed in 1997, however, the additional
                    closings were offset by the fourteen hospitals that opened or reopened in 1998,
                    eleven more than in 1997.

          !         Most hospitals that closed were small and had low occupancy rates.

          !	        The characteristics, reasons for, and impact of 1998 closures were similar to the
                    1997 closures.

          !	        Although residents of a few communities had to travel greater distances for
                    hospital care, most had emergency and inpatient medical care available within 10
                    miles of a closed hospital.

Extent and characteristics of closed hospitals
How many closed

          In 1998, there were 4,785 general, short-term, acute care hospitals in the United States
          entered on HCFA's HCRIS data base as participating in the Medicare program. Forty-
          three hospitals closed in 1998 -- 0.9 percent of all hospitals nationally.

                   Number of hospitals in the U.S.                        4,785
                   Number of hospitals that closed in 1998                   43      (0.9)
                                                                                        %

          While 43 hospitals closed in 1998, 12 new hospitals opened and 2 previously closed
          hospitals reopened. In comparison, 38 hospitals closed in 1997, 2 new hospitals opened
          and 1 previously closed hospital reopened. The net effect was a decrease in 1998 hospital
          closures (29 hospitals) over the 1997 closures (35 hospitals).

The effect on bed supply

          Closure of the 43 general, acute care hospitals reduced 1998 inpatient bed supply by 4,221
          beds, or 0.6 percent.

                   Number of inpatient beds in the U.S.                746,544
                   Inpatient beds in hospitals that closed in 1998        4,221   (0.6)%


Hospital Closure: 1998                                5                                      OEI-04-99-00330
          The 14 hospital openings and reopenings, however, added 1,413 beds and 193 beds
          respectively. Therefore, the net reduction to the 1998 inpatient bed supply was 2,615
          beds. In comparison, the net reduction to the 1997 inpatient bed supply was 3,641 beds.
          Hence, the inpatient bed supply decreased less in 1998 than in 1997.

Where they were

          The closed hospitals were located in 18 States. California had the greatest number of
          closures (10), followed by Texas (4), Minnesota (3), Ohio (3), Tennessee (3), and Virginia
          (3). The remaining 12 States had 1 or 2 closures each. Appendix B lists the number of
          hospital closures by State. Appendix C lists the closures by location.

          A higher percentage of urban hospitals (1.1%) closed in 1998 than did rural hospitals
          (0.7%).

                                                   URBAN                     RURAL
           Hospitals in the U.S.:                      2,657                 2,128
           Closed in 1998                                28 (1.1)%               15 (0.7)%

What the closed hospitals were like

          Size: Both rural and urban hospitals that closed in 1998 were smaller, on average, than
          the national average size. The average number of beds for hospitals nationwide is 156.
          About 84 percent of the hospitals that closed had fewer beds than the national average.
          Furthermore, over half (58 percent) of the hospitals that closed had fewer than 100 beds.
          In contrast, 16 percent of the closed hospitals, all of which were urban hospitals, had
          more beds than the national average.

                                    SIZE OF CLOSED HOSPITALS
                                                  Number of Closed Hospitals

                Number of Beds          Rural           Urban        Total        Percent

                          0 - 30          7               3           10             23%
                         31 - 50          1               6            7             16%
                         51 - 100         5               3            8             19%
                     101 - 150            2               8           10             23%
                     151 - 200            0               3            3             7%
                     201 - 300            0               3            3             7%
                          301 >           0               2            2             5%
                          Totals          15             28           43           100%


Hospital Closure: 1998                             6                                       OEI-04-99-00330
          Rural hospitals that closed had an average of 48.4 beds as compared to an average of 72.7
          beds for all rural hospitals nationally. Urban hospitals that closed had an average of 124.8
          beds as compared to an average of 222.8 beds for all urban hospitals nationally.




          Occupancy: Occupancy rates for closed rural and urban hospitals were lower on average
          than the national averages.1

          Rural hospitals that closed had an average occupancy rate of 28.3 percent as compared to
          an average of 32.7 percent for all rural hospitals nationally. The average daily census in
          the year prior to closure was about 14 patients versus the national average of 24 patients.

          Urban hospitals that closed had an average occupancy rate of 33.6 percent as compared to
          an average of 49.3 percent for all urban hospitals nationally. The average daily census in
          the year prior to closure was about 42 patients versus the national average of 110 patients.




          1
           Hospital occupancy rate is defined as the actual number of patient days divided by the total bed days
available. National average occupancy rate is defined as the sum of all hospitals’ occupancy rates, divided by the
number of hospitals.

Hospital Closure: 1998                                      7                                             OEI-04-99-00330
          Medicare Utilization: The average Medicare utilization among rural and urban hospitals
          that closed was lower than the national average.2

          In rural areas, the average Medicare utilization among hospitals that closed was 55.2
          percent compared to an average of 59.3 percent for all rural hospitals nationally. About
          eight Medicare patients were in the hospital on an average day in the year prior to closure.

          In urban areas, the average Medicare utilization among hospitals that closed was 38.8
          percent compared to an average of 46.4 percent for all urban hospitals nationally. About
          16 Medicare patients were in the hospital on an average day in the year prior to closure.




          Medicaid Utilization: The average Medicaid utilization among rural and urban hospitals
          that closed was higher than the national average.3

          In rural areas, the average Medicaid utilization among hospitals that closed was 12.3
          percent as compared to an average of 11.3 percent for all hospitals nationally. About two
          Medicaid patients were in the hospital on an average day in the year prior to closure.

          In urban areas, the average Medicaid utilization among hospitals that closed was 22.4
          percent as compared to an average of 14.4 percent for all urban hospitals nationally.
          About nine Medicaid patients were in the hospital on an average day in the year prior to
          closure.




          2
            Average Medicare utilization in closed hospitals is defined as the percent of Medicare patient days compared
to the total patient days for each hospital, summed and divided by the number of hospitals. National average Medicare
utilization is the percent of Medicare utilization of each hospital, summed and divided by the total number of hospitals.
          3
              Medicaid utilization is calculated in the same way as Medicare utilization.

Hospital Closure: 1998                                         8                                          OEI-04-99-00330
Reasons for hospital closure
          The health care professionals we interviewed reported many reasons for hospital closure.
          The most often reported reasons for closures, in order, were low occupancy, financial
          problems, outdated facilities, Medicare and Medicaid reimbursement reductions, and
          increased competition. These reasons for closure were interrelated.

          Officials in eight of the 43 hospitals that closed included Medicare and Medicaid
          reimbursement reductions as a reason for closure. However, only one claimed it to be the
          sole reason. In this instance, the hospital’s occupancy was significantly lower than the
          national average and two larger hospitals were located within four miles. Therefore,
          competition contributed as a factor to closure.

          The other seven hospitals claimed low census, competition, and mergers were contributing
          reasons for closure. For example, a hospital that closed in Texas was one of three local
          hospitals bought out by a corporation. The corporation closed one of the three hospitals
          in 1997 and another in 1998 in order to maximize the occupancy and efficiency of the
          remaining hospital.

          Eleven hospitals reported outdated facilities as reason for closure. The 11 hospitals closed
          and opened eight new facilities. For example, one hospital in California suffered
          earthquake damage in 1989. Hospital management determined that it would be more cost
          effective to build a new facility rather than renovate the existing facility. The new hospital
          is located 1.5 miles from the old hospital. In Minnesota, three local hospitals closed and
          were replaced by one new regional hospital.




Hospital Closure: 1998                              9                                      OEI-04-99-00330
Impact of hospital closure
          In communities where hospitals closed in 1998, we determined the

          !         number of patients affected by closure of hospitals,

          !         availability of inpatient care and emergency medical services, and

          !         current use of closed hospital facilities.

How many patients were affected

          For rural hospitals that closed in 1998, the average daily census in the year prior to closure
          was about 14 patients. The urban hospitals that closed had an average daily census of
          about 42 patients.

                                     WHEN HOSPITALS CLOSED,
                                HOW MANY PATIENTS WERE AFFECTED?

                                                             Rural Hospitals        Urban Hospitals
              Average Number of Beds                              48.4                   124.8
              Average Occupancy Rate                             x 28.3%                 x 33.6%
              Average Number of Patients                          13.7                    41.9

          We analyzed Medicare utilization data to determine the number of elderly patients affected
          by hospital closure in 1998. In rural hospitals that closed, about eight Medicare patients
          were in the hospital on an average day in the year prior to closure. In the urban hospitals
          that closed, about 16 Medicare patients were in the hospital on an average day.

                                  WHEN HOSPITALS CLOSED,
                         HOW MANY MEDICARE PATIENTS WERE AFFECTED?

                                                             Rural Hospitals        Urban Hospitals
              Average Patient Census                              13.7                   41.9
              Average Medicare Utilization Rate                  x 55.2%                 x38.8%
              Average Number Medicare Patients                    7.6                    16.3




Hospital Closure: 1998                                 10                                  OEI-04-99-00330
What inpatient care and emergency services are available

            Inpatient Care: In most communities where a hospital closed in 1998, inpatient hospital
            care was available nearby.4

                               NEAREST INPATIENT CARE TO CLOSED HOSPITALS

                                                                                  NUMBER OF CLOSED
                                                                                     HOSPITALS
                                 DISTANCE                                      RURAL                         URBAN
                Within 3 Miles                                            3           20.0%             11          39.3%
                4-10 Miles                                                5           33.3%             12          42.9%
                11-20 Miles                                               2           13.3%              2           7.1%
                21-30 Miles                                               3           20.0%              3          10.7%
                More than 30 Miles                                        2           13.3%              0           0.0%
                                     Totals                               15         100.0%             28          100.0%

            Rural Areas: Residents in 10 of the 15 rural communities (67 percent) where a hospital
            closed could get inpatient hospital care within 20 miles of the closed hospital. Residents
            of Mountain City, Tennessee, had to travel 40 miles to obtain inpatient hospital care in
            Tennessee. In addition, residents of Hot Springs, South Dakota had to travel 60 miles to
            obtain inpatient hospital care. The Hot Springs community was considering converting
            their closed hospital into a Critical Access Hospital.5 Critical Access Hospitals provide up
            to four days of limited inpatient services.

            Urban Areas: In 23 of the 28 urban communities (82%) where a hospital closed in 1998,
            residents could get inpatient hospital care within 10 miles of the closed hospital. Residents
            in all 28 urban communities where a hospital closed could get inpatient care within 30
            miles of the closed hospital.

            Emergency Services: When a hospital closed, the community lost not only inpatient
            beds, but also 24-hour emergency services.6




            4
                We assessed availability of inpatient medical care in miles from a closed hospital to the nearest inpatient
facility.

            5
          The 1997 Balanced Budget Act changed Medical Assistance Facilities (MAF) to Critical Access Hospitals
(CAH) as part of the Rural Hospital Flexibility Program.

            6
                We assessed availability of emergency medical care in miles from a closed hospital to the nearest emergency
facility.

Hospital Closure: 1998                                           11                                              OEI-04-99-00330
          Rural Areas: In 11 of the 15 rural communities (73 percent) where a hospital closed in
          1998, emergency care facilities were available within 20 miles of the closed hospital. Of
          the remaining four rural communities where a hospital closed, three had emergency care
          within 24 miles. The residents of Hot Springs, South Dakota had to travel 60 miles to
          obtain 24-hour emergency care.

          Urban Areas: Emergency care facilities were available within 10 miles of the closed
          hospital in 25 of the 28 urban communities where a hospital closed in 1998. Residents of
          Rush City, Minnesota, Paterson, California, and Wetumka, Oklahoma had to travel 18, 25,
          and 30 miles respectively for 24-hour emergency care.

                         NEAREST EMERGENCY SERVICES TO CLOSED HOSPITALS

                                                                 NUMBER OF CLOSED
                                                                    HOSPITALS
                             DISTANCE                          Rural                    Urban
               Within 3 Miles                              4         26.7%         12         42.9%
               4-10 Miles                                  5         33.3%         13         46.4%
               11-20 Miles                                 2         13.3%          1           3.6%
               21-30 Miles                                 3         20.0%          2           7.1%
               More than 30 Miles                          1           6.7%         0           0.0%
                                Totals                    15        100.0%         28        100.0%

What the building is used for now

          At the time of our inspection, 20 of the 43 closed hospital facilities (47 percent) were
          being used for health-related services. For example:

          !	        Legend Buttes Health Services in Crawford, Nebraska along with seven other
                    closed hospitals became health clinics.

          !	        South Pittsburg Municipal Hospital in South Pittsburg, Tennessee became an
                    assisted living facility.

          !	        Chisago Health Services in Chisago City, Minnesota and Lifecare Medical Arts
                    Hospital in Dallas, Texas are now long-term care facilities.

          Of the 23 closed hospital facilities that were not being used for health-related services,
          plans were being made to use 6 for health-related services. In addition, two facilities had
          been demolished.




Hospital Closure: 1998                             12                                     OEI-04-99-00330
                                                                                APPENDIX A

METHODOLOGY

Extent of Hospital Closure

To determine how many hospitals closed in 1998, we contacted State licensing and certification
agencies, State hospital associations, and State health planning agencies. We also compiled
Health Care Financing Administration (HCFA) data on terminated hospitals in 1998. When a
closed hospital met the study definition or when questions arose, we surveyed officials associated
with the closed hospitals, officials associated with hospitals nearest to the closed hospital, and
local public officials.

To quantify the number of hospitals in the United States, we used the Hospital Cost Report
Information System (HCRIS) maintained by HCFA. We included only general, short-term, acute
care hospitals under Medicare's Prospective Payment System (PPS) in the universe. There were
4,785 hospitals listed on HCRIS as short-term, acute care, general hospitals for 1998.

Characteristics of Hospital Closure

To analyze characteristics of closed hospitals, we used HCRIS data. We used the latest pre-
closure cost reports. For example, if a hospital closed in May 1998 and its accounting year was
on a January-December cycle, we used the hospital's January 1, 1997 to December 31, 1997
report.

Reasons for and Impact of Hospital Closure

We limited our "impact" analysis to the distance from a closed hospital to the nearest still-
operating hospitals and to emergency services. In addition to the HCRIS, we obtained data for
our analysis from interviews with the following sources.

 !        Former hospital administrators, board members, and/or staff of closed hospitals

 !        Hospital administrators and/or staff at the nearest hospitals

 !        Local fire, health, and government officials

 !        State health planning agencies

 !        State certification and licensing agencies

 !        State hospital associations




Hospital Closure: 1998                             13                                  OEI-04-99-00330
                                                                        APPENDIX B

                           1998 HOSPITAL CLOSURES - RANKED BY STATE
                   State              Total Closures   Rural Closures   Urban Closures
  California                                10               1                9
  Texas                                     4                1                3
  Minnesota                                 3                0                3
  Ohio                                      3                1                2
  Tennessee                                 3                1                2
  Virginia                                  3                1                2
  Connecticut                               2                0                2
  Florida                                   2                1                1
  Nebraska                                  2                2                0
  Oklahoma                                  2                1                1
  Wisconsin                                 2                1                1
  Louisiana                                 1                1                0
  Michigan                                  1                1                0
  Missouri                                  1                1                0
  New Mexico                                1                1                0
  New York                                  1                0                1
  Oregon                                    1                0                1
  South Dakota                              1                1                0
                 18 States                 43               15               28




Hospital Closure: 1998                          14                           OEI-04-99-00330
                                                                     APPENDIX C

                         1998 HOSPITAL CLOSURES BY NAME AND LOCATION
                                                                                Rural/
                          Hospital Name                  City        State      Urban
  Bloss Memorial Hospital                         Atwater            CA         Rural
  Del Puerto Hospital                             Patterson          CA         Urban
  Friendly Hills Regional Medical Center          La Habra           CA         Urban
  Long Beach Doctors Hospital                     Long Beach         CA         Urban
  North Hollywood Medical Center                  North Hollywood    CA         Urban
  Pacifica Hospital                               Huntington Beach   CA         Urban
  Riverside General Hospital - University         Riverside          CA         Urban
  South Bay Medical Center                        Redondo Beach      CA         Urban
  Watsonville Community Hospital                  Watsonville        CA         Urban
  Woodruff Community Hospital                     Long Beach         CA         Urban
  St. Joseph Medical Center                       Stamford           CT         Urban
  Veterans Memorial Medical Center                Meriden            CT         Urban
  Everglades Regional Medical Center              Pahokee            FL         Rural
  Florida Medical Center South                    Plantation         FL         Urban
  Welsh General Hospital                          Welsh              LA         Rural
  Morenci Area Hospital                           Morenci            MI         Rural
  Chisago Health Services                         Chisago City       MN         Urban
  District Memorial Hospital                      Forest Lake        MN         Urban
  Rush City Hospital                              Rush City          MN         Urban
  Capital Region Medical Center S.W.              Jefferson City     MO         Rural
  Community Memorial Hospital                     Humboldt           NE         Rural
  Legend Buttes Health Services                   Crawford           NE         Rural
  Plains Regional Medical Center - Portales       Portales           NM         Rural
  Union Hospital of the Bronx                     Bronx              NY         Urban
  People's Hospital                               Mansfield          OH         Rural
  Piqua Memorial Hospital                         Piqua              OH         Urban
  Stouder memorial Hospital                       Troy               OH         Urban
  Seminole Municipal Hospital                     Seminole           OK         Rural
  Wetumka General Hospital                        Wetumka            OK         Urban
  Cottage Grove Health Care Community             Cottage Grove      OR         Urban
  Southern Hills Hospital                         Hot Springs        SD         Rural
  Johnson County Hospital                         Mountain City      TN         Rural
  South Pittsburg Municipal Hospital              South Pittsburg    TN         Urban
  St. Joseph's Hospital                           Memphis            TN         Urban
  Lakes Regional Medical Center                   Jasper             TX         Rural
  Columbia Doctors Hospital - Airline             Houston            TX         Urban
  Lifecare Medical Arts Center                    Dallas             TX         Urban
  Palo Duro Hospital                              Canyon             TX         Urban
  Wise Appalachian Regional Hospital              Wise               VA         Rural
  Norfolk Community Hospital                      Norfolk            VA         Urban
  Richmond Memorial Hospital                      Richmond           VA         Urban
  Northwoods Hospital                             Phelps             WI         Rural
  Sinai Semaritan Medical Center - West Campus    Milwaukee          WI         Urban




Hospital Closure: 1998                       15                              OEI-04-99-00330
